Md. —
IN THE
SUPREME COURT OF THE UNITED STATES

LAMAR A. WILLIAMS - PETITIONER
vs.
united states of amerikkka et al. - respondents
PROOF OF SERVICE
I, Lamar A. Williams, do swear or declare that on this date, September 28,
2020, as required by Supreme Court Rule 29 I have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS and PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid, or by delivery to a
third-party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
leah grossi
Assistant United States Attorney
6406 Ivy Lane
Greenbelt, Maryland 20770
leah.grossi@usdoi.gov
I declare under penalty of perjury that the foregoing is tme and correct.
Executed on September 28, 2020
amar A. Williams, Petitioner, pro se

7

